                                                      ",," SBCV
                                                    O(j~
                                                   .';.ff/ts~"\1
                                                   \ lllIlIl.-<.~
                                                      :t"'IS~t-
                                         SOCIAL       SECURITY
                                         Office of the Inspector General
MEMORANDUM

Date:                                                                        ReferTo:
            FEB   2 6   2001

To:        Carmen Keller
           Regional Commissioner

From:      Assistant Inspector General
            for Audit

           Audit of the Administrative Costs Claimed by the Oregon Disability Determination
Subject:
           Services (A-15-99-52021 )


           The attached final report presents the results of our audit. Our objectives were to
           evaluate the Oregon Disability Determination Services internal controls over the
           accounting and reporting of administrative costs and to determine if the costs claimed
           were allowable and allocable.

           Please comment within 60 days from the date of the memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Frederick Nordhoff, Director, Financial
           Management and Performance Monitoring Audit Division, at (410) 966-6676.




           Attachment



           cc:

           Lloyd Horsley, Assistant Administrator

           Disability Determination Services

           Kenneth D. Nibali, Associate Commissioner,

           Office of Disability
           Thomas G. Staples, Associate Commissioner,
           Office of Financial Policy and Operations




  .
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




   AUDIT OF THE ADMINISTRATIVE
      COSTS CLAIMED BY THE
        OREGON DISABILITY
     DETERMINATION SERVICES

   February 2001   A-15-99-52021




AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                  EXECUTIVE SUMMARY

OBJECTIVE

The objectives of our audit of the Oregon (OR) Disability Determination Services (DDS)
were to:

•	   evaluate internal controls over the accounting and reporting of the administrative
     costs claimed, as well as of the draw down of the Social Security Administration
     (SSA) funds;

•	   determine whether costs claimed on the State Agency Report of Obligations for
     SSA Disability Programs (Form SSA-4513) for the three-fiscal year (FY) periods
     starting October 1, 1995 through September 30, 1998, were allowable and properly
     allocated; and

•	   determine if the aggregate of the SSA funds drawn down agreed with total
     expenditures for the FYs 1996 through 1998 disability determinations.

BACKGROUND

The Disability Insurance (DI) program was established in 1954 under title II of the Social
Security Act (Act). The program is designed to provide benefits to wage earners and
their families in the event the wage earner becomes disabled. Supplemental Security
Income (SSI) was created as a result of the Social Security Amendments of 1972 with
an effective date of January 1, 1974. SSI, (title XVI of the Act) provides a nationally
uniform program of income to financially needy individuals who are aged, blind or
disabled.

SSA is primarily responsible for implementing the general policies governing the
development of the disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by an agency in each State
according to Federal regulations. In carrying out its obligation, each State agency (SA)
is responsible for determining claimants’ disabilities and ensuring that adequate
evidence is available to support its determinations. To assist in making proper disability
determinations, each SA is authorized to purchase medical examinations, x-rays and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA pays the SA for 100 percent of allowable expenditures. Each year, SSA approves
a DDS budget. Once approved, the SA is allowed to withdraw Federal funds through
the Department of Health and Human Services’ Payment Management System (PMS)


                                             i
or the Department of the Treasury’s Automated Standard Application for Payments
(ASAP) System to meet immediate program expenses. At the end of each quarter of
the Federal FY, each SA submits to SSA a "State Agency Report of Obligations for
SSA Disability Programs" (Form SSA-4513) to account for program disbursements and
unliquidated obligations. SSA authorized an administrative budget of $45,203,489 for
the three-FY periods starting October 1, 1995 through September 30, 1998. Our audit
coverage included any subsequent financial activities affecting these FYs as of
December 31, 1999.

Our methodology included reviewing applicable Federal laws, regulations, and SSA
policies and procedures, as well as the OR-DDS general policies and procedures
pertaining to administrative costs incurred and the drawing down of SSA funds. We
held discussions with representatives of OR Vocational Rehabilitation Division,
OR-DDS, SSA’s Office of Disability, SSA’s Seattle Regional Office, and State auditors.

We reviewed internal controls regarding accounting and financial reporting, and cash
management activities. We conducted our audit in accordance with generally accepted
government auditing standards. Our fieldwork was conducted from August 1999
through March 2000 at OR-DDS in Salem, Oregon, and in Baltimore, Maryland, at SSA
Headquarters.

RESULTS OF REVIEW

We reviewed the internal controls and administrative costs for personnel, medical
services, and other non-personnel costs. We also reviewed the calculation of indirect
costs. Based on our review, we found the following conditions:

•   INCORRECT FISCAL YEAR RENTAL PAYMENTS

•   DRAWDOWNS EXCEEDED DISBURSEMENTS

CONCLUSIONS AND RECOMMENDATIONS

Except for the preceding findings, OR-DDS has complied with financial requirements of
the DDS program and other applicable Federal cost principles and regulations.

Based on the information obtained from SSA, OR-DDS and the tests we performed, we
recommend that SSA:

1. 	 Instruct OR-DDS to reclassify to FY 1999, the $55,987 for rental expenses that were
     incorrectly charged to FY 1998, or reimburse SSA for the amount.

2. Comply with Federal appropriation law for use of FY funds.




                                           ii
3. 	 Instruct OR-DDS to reimburse SSA $124,681 through the PMS/ASAP for the excess
     drawdowns and coordinate with the Office of Financial Policy and Operations
     (OFPO) to remedy the FY 96 excess drawdown.

4. 	 Instruct OR-DDS to ensure that drawdowns are not in excess of DDS FY
     expenditures.

5. 	 Establish a procedure to review DDS quarterly drawdowns and ensure that
     drawdown amounts are not in excess of DDS disbursements.

AGENCY COMMENTS
In response to our draft report, the SSA regional office (RO) agreed with our
recommendations, except for the recommendation concerning excess drawdowns.

OR-DDS agreed with our recommendations, agreed to reclassification of the rental
expenses, and provided additional documentation/information on certain
recommendations. (See Appendix C for SSA RO and OR-DDS comments to our draft
report).

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We do not concur with the RO’s comments concerning the questioned rental expenses
and compliance with appropriation law. We believe applicable Federal laws and
regulations are clear regarding the period of availability of fiscal year funds. Currently,
OIG is in the process of issuing a report that seeks clarification of this issue.

Also, we do not concur with the comments concerning the reimbursements of
drawdowns and RO review of DDS quarterly drawdowns. The RO states that the
excess drawdowns are unliquidated. Section 31 of Code Federal Regulations
§ 205.7(c)(5) and (d) requires that a State shall limit the amount of funds transferred to
meet actual, immediate cash needs. We do not believe that unliquidated obligations
noted during the audit meet the definition of actual, immediate cash needs. With
respect to the RO review of DDS quarterly drawdowns, all fiscal years reviewed during
this audit were overdrawn for a period ending at least three fiscal quarters, and as many
as thirteen fiscal quarters. There was no evidence of any reductions of funds drawn in
the ASAP system or correspondence from the RO.

We concur with OR-DDS, since their office provided documents for unsupported costs.
As a result, we have removed that finding and the related recommendation. We also
consider the excess drawdown issue resolved, with the exception of the FY 1996
excess drawdown. For all the recommendations, we await response on proposed
corrective actions within 60 days of the date of this memorandum.




                                             iii
                              TABLE OF CONTENTS

                                                                                                              Page


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 4


    INCORRECT FISCAL YEAR PAYMENTS ....................................................... 4


    DRAWDOWNS EXCEEDED DISBURSEMENTS............................................. 4


CONCLUSIONS AND RECOMMENDATIONS ...................................................... 6


APPENDICES


APPENDIX A – Obligations Reported/Allowed the Oregon Disability Determination
             Services for Fiscal Years 1996 to 1998 as of December 31, 1999

APPENDIX B – Questioned Costs

APPENDIX C – SSA and OR-DDS Comments

APPENDIX D – OIG Contacts and Acknowledgments
                          INTRODUCTION

OBJECTIVE

The objectives of our audit of the Oregon (OR) Disability Determination Services (DDS)
were to:

•	   evaluate internal controls over the accounting and reporting of the administrative
     costs claimed, as well as of the draw down of the Social Security Administration
     (SSA) funds;

•	   determine whether costs claimed on the State Agency Report of Obligations for
     SSA Disability Programs (Form SSA-4513) for the three-fiscal year (FY) periods
     starting October 1, 1995 through September 30, 1998, were allowable and
     properly allocated; and

•	   determine if the aggregate of the SSA funds drawn down agreed with total
     expenditures for the FYs 1996 through 1998 disability determinations.

BACKGROUND
The Disability Insurance (DI) program was established in 1954 under title II of the Social
Security Act (Act). The program is designed to provide benefits to wage earners and
their families in the event the wage earner becomes disabled. Supplemental Security
Income (SSI) was created as a result of the Social Security Amendments of 1972 with
an effective date of January 1, 1974. SSI (title XVI of the Act) provides a nationally
uniform program of income to financially needy individuals who are aged, blind or
disabled.

SSA is primarily responsible for implementing the general policies governing the
development of the disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by an agency in each State
according to Federal regulations. In carrying out its obligation, each State agency (SA)
is responsible for determining claimants’ disabilities and ensuring that adequate
evidence is available to support its determinations. To assist in making proper disability
determinations, each SA is authorized to purchase medical examinations, x-rays and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA pays the SA for 100 percent of allowable expenditures. Each year, SSA approves
a DDS budget. Once approved, the SA is allowed to withdraw Federal funds through
the U.S. Department of Health and Human Services’ (HHS) Payment Management


                                            1
System (PMS) or the U.S. Department of the Treasury’s (Treasury) Automated
Standard Application for Payments System to meet immediate program expenses. At
the end of each quarter of the Federal FY, each SA submits to SSA a "State Agency
Report of Obligations for SSA Disability Programs" (Form SSA-4513) to account for
program disbursements and unliquidated obligations.

HHS’ Division of Payment Management is responsible for operating this centralized
payment system. Cash drawn from the Treasury to pay for program expenditures is to
be drawn according to Federal regulations1 and in accordance with intergovernmental
agreements entered into by Treasury and the States under the authority of the Cash
Management Improvement Act (CMIA) of 19902. An advance or reimbursement for
costs under the program must be made according to the Office of Management and
                       3
Budget (OMB) guidance .

OR-DDS’s financial reporting functions are primarily the responsibility of the Oregon
Vocational Rehabilitation Division (VRD). Allocation of indirect costs is done according
to an OR-VRD indirect cost agreement that is approved by the HHS.

OR-DDS is a component within the OR-VRD. OR-DDS’s primary responsibility is
processing SSA disability determinations. OR-DDS maintains one location and has
approximately 178 budgeted positions. SSA authorized an administrative budget of
$45,203,489 for disability determinations for the period under audit (FYs 1996 through
1998).

SCOPE AND METHODOLOGY

To accomplish the audit objectives, we obtained sufficient evidence to evaluate the
financial transactions to determine whether they are allowable under OMB Circular A-87
and appropriate as defined by SSA's Program Operations Manual System (POMS).
Furthermore, we:

�	 reviewed applicable Federal regulations, pertinent parts of the POMS DI 39500
   “DDS Fiscal and Administrative Management” and other instructions pertaining to
   administrative costs incurred by OR-DDS and the drawdown of SSA funds covered
   by the CMIA agreement;

�	 interviewed OR-DDS personnel, OR-VRD personnel, State auditors, and SSA's staff
   at the Seattle regional office (RO) of Disability and Headquarters Office of Disability;

�   reviewed OR-DDS’s general policies and procedures;


  31 Code of Federal Regulations §205

1
2
  Public Law No. 101-453

3
  OMB Circular A-87, “Cost Principles for State, Local, and Indian Tribal Governments.”





                                                    2
�	 reviewed and tested internal controls regarding accounting and financial reporting,
   and cash management activities;

�	 performed an examination of the administrative expenditures (personnel, medical
   service, indirect and all other non-personnel costs) and Automation Investment
   Funds (AIF) incurred and claimed by OR-DDS for the three-FY periods starting
   October 1, 1995 through September 30, 1998;

�	 reconciled the official State accounting records to the administrative costs reported
   by OR-DDS to SSA on the Form SSA-4513 report for the period October 1, 1995
   through September 30, 1998; and

�	 compared the amount of SSA funds drawn down to the allowable expenditures
   reported on the Form SSA-4513.

We tested documents supporting the $45,203,489 of costs claimed by OR-DDS for the
three-FY periods starting October 1, 1995 through September 30, 1998, to include any
subsequent financial activities affecting these FYs as of December 31, 1999.

The entity audited was the Office of Disability within the Office of the Deputy
Commissioner for Disability and Income Security Programs.

We conducted our audit in accordance with generally accepted government auditing
standards. We conducted the fieldwork from August 1999 through March 2000 at
OR-DDS in Salem, Oregon, and in Baltimore, Maryland, at SSA Headquarters.




                                             3
                       RESULTS OF REVIEW


INCORRECT FISCAL YEAR PAYMENTS
During our examination of administrative expenditures incurred and claimed for the
period under audit, we identified FY 1999 rental expenses of $55,987, which were
accounted for and reported as expenditures for FY 1998. We were informed by
OR-DDS that permission for using FY 1998 funds for FY 1999 expenditures was
granted by SSA through the RO. Section 31 of United States Code § 1502 (a)
provides, in part, that “the balance of an appropriation or fund limited for obligation to a
definite period is available only for payment of expenses properly incurred during the
period of availability… However, the appropriation or fund is not available for
expenditure for a period beyond the period otherwise authorized by law.” The failure to
use funds restricted to a specific period violates a State’s responsibility to fiscally
manage within its budget allocation. Since the State failed to expend funds in
conformance with applicable Federal laws and regulations, we are disallowing the cost
reimbursed for this expenditure.

DRAWDOWNS EXCEEDED DISBURSEMENTS

OR-DDS drawdowns exceeded reported disbursements by $124,681. The figures are
computed as follows:

                   Comparison of Drawdowns to Reported Disbursements

                          PMS/ASAP       Cash         SSA-4513            Excess
                          Drawdowns     Available   Disbursements       Drawdowns
       FY 1996            $12,479,501                  $12,449,896          $29,605
       FY 1997            $15,178,265                  $15,110,733          $67,532
       FY1998 AIF            $197,480                     $169,936          $27,544
       Total Excess                                                        $124,681

Federal regulations4 state, in part, that a State participating in reimbursable funding
shall request funds only after it has paid out its own funds for program purposes and
that a State and Federal agency shall limit the amount of funds transferred to a State to
the minimum required to meet a State’s actual, immediate cash needs. We determined
that as of December 31, 1999, OR-DDS had retained cash funds that were not needed
to meet immediate expenses. OR-VRD staff was unaware of the excess drawdowns,
but conceded that errors can occur and plan to rectify the issue. The excess funds
need to be returned as soon as possible.
4
    31 CFR § 205.7(c)(5) and (d)



                                               4
 CONCLUSIONS AND RECOMMENDATIONS

Except for the preceding findings, OR-DDS has complied with financial requirements of
the DDS program and other applicable Federal cost principles and regulations. The
OR-VRD and OR-DDS staff were very helpful and prompt in providing the required
documentation needed to conduct our audit.

Based on the information obtained from SSA, OR-DDS and the tests we performed, we
recommend that SSA:

1. 	 Instruct OR-DDS to reclassify to FY 1999, the $55,987 for rental expenses that were
     incorrectly charged to FY 1998, or reimburse SSA for the amount.

2. Comply with Federal appropriation law for use of FY funds.

3. 	 Instruct OR-DDS to reimburse SSA $124,681 through the PMS/ASAP for the excess
     drawdowns and coordinate with the Office of Financial Policy and Operations to
     remedy the FY 96 excess drawdown.

4. 	 Instruct OR-DDS to ensure that drawdowns are not in excess of DDS FY
     expenditures.

5. 	 Establish a procedure to review DDS quarterly drawdowns and ensure that
     drawdown amounts are not in excess of DDS disbursements.

AGENCY COMMENTS

In response to our draft report, the SSA RO agreed with our recommendations, except
for the recommendation concerning excess drawdowns.

OR-DDS agreed with our recommendations, agreed to reclassification of the rental
expenses, and provided additional documentation/information for certain
recommendations. (See Appendix C for SSA RO and OR-DDS comments to our draft
report).

OFFICE OF THE INSPECTOR GENERAL RESPONSE
We do not concur with the RO’s comments concerning the questioned rental expenses
and compliance with appropriation law. We believe applicable Federal laws and
regulations are clear regarding the period of availability of fiscal year funds. Currently,
OIG is in the process of issuing a report that seeks clarification of this issue.




                                             5
Also, we do not concur with the comments concerning the reimbursements of
drawdowns and RO review of DDS quarterly drawdowns. The RO states that the
excess drawdowns are unliquidated. Section 31 of Code Federal Regulations
§ 205.7(c)(5) and (d) requires that a State shall limit the amount of funds transferred to
meet actual, immediate cash needs. We do not believe that unliquidated obligations
noted during the audit meet the definition of actual, immediate cash needs. With
respect to the RO review of DDS quarterly drawdowns, all fiscal years reviewed during
this audit were overdrawn for a period ending at least three fiscal quarters, and as many
as thirteen fiscal quarters. There was no evidence of any reductions of funds drawn in
the ASAP system or correspondence from the RO.

We concur with OR-DDS, since their office provided documents for unsupported costs.
We have removed that finding and the related recommendation. We also consider the
excess drawdown issue resolved, with the exception of the FY 1996 excess drawdown.
To address the FY 1996 excess drawdown, we recommend that the RO work with the
OFPO to provide detailed instructions on how to return the $29,605 in excess funds that
OR-DDS received through PMS. For all the recommendations, we await response on
proposed corrective actions within 60 days of the date of this memorandum.




                                            6
APPENDICES

                                                                                                                                         APPENDIX A


    OBLIGATIONS REPORTED/ALLOWED OR DISABILITY DETERMINATION

    SERVICES FOR FISCAL YEARS 1996 to 1998 AS OF DECEMBER 31, 1999


                           TOTAL OBLIGATIONS                            UNLIQUIDATED OBLIGATIONS                            DISBURSEMENTS
                                      NET                                                NET                                       NET
                                  RECOMMENDED                                        RECOMMENDED                               RECOMMENDED
  COSTS            REPORTED       ADJUSTMENTS       ALLOWABLE         REPORTED       ADJUSTMENTS   ALLOWABLE     REPORTED      ADJUSTMENTS         ALLOWABLE


PERSONNEL           $20,288,497               $0        $20,288,497          $0               $0           $0    $20,288,497              $0        $20,288,497
MEDICAL              13,754,261                0         13,754,261           0                0            0     13,754,261               0         13,754,261
INDIRECT              4,122,427                0          4,122,427           0                0            0      4,122,427               0          4,122,427
                                                                                                                                               5
ALL OTHER             7,038,304          (55,987)         6,982,317      130,034               0       130,034     6,908,270        (55,987)          6,852,283
TOTAL               $45,203,489         ($55,987)       $45,147,502     $130,034               0      $130,034   $45,073,455        ($55,987)       $45,017,468



           5
               For amount breakdowns, see Appendix B.




                                                                                   A-1

     OBLIGATIONS REPORTED/ALLOWED OR DISABILITY DETERMINATION

      SERVICES FOR FISCAL YEAR 1998 AIF AS OF DECEMBER 31, 1999


                   TOTAL OBLIGATIONS                    UNLIQUIDATED OBLIGATIONS                           DISBURSEMENTS
                              NET                                        NET                                     NET
                          RECOMMENDED                                RECOMMENDED                             RECOMMENDED
            REPORTED      ADJUSTMENTS   ALLOWABLE     REPORTED       ADJUSTMENTS   ALLOWABLE    REPORTED     ADJUSTMENTS   ALLOWABLE
  COSTS

PERSONNEL      $205,000            $0      $205,000      $46,404              $0      $46,404     $158,596            $0      $158,596
FURNITURE         8,312             0         8,312           0                0           0         8,312             0         8,312
TRAINING          3,027             0         3,027           0                0           0         3,027             0         3,027
TOTAL          $216,339            $0      $216,339      $46,404               0      $46,404     $169,935            $0      $169,935




                                                                   A-2

                                         APPENDIX B



                 QUESTIONED COSTS


Incorrect Fiscal Year Rental Payments


          Invoice           Amount
AIU38316F                    $27,994
AIU38201F                     27,993
Total Incorrect Payments     $55,987
(Rounded)

                             Amount
Excess Drawdowns              $124,681

Total Questioned Costs        $180,668
                       APPENDIX C



SSA AND OR-DDS COMMENTS

                                  SOCIAL         S~UB1IY



MEMORANDUM

           02/15/01                                            Refer To: S2DXG3:D3

           Director                                            Seattle Regional Office
           Financial    Management     and Performance
           Monitoring    Audit   Division


From       Regional Commissioner
           Seattle Region

Subject    Audit of the Administrative Costs Claimed by the Oregon Disability
           Determination Services (A-15-99-52021) -Reply

          We have read and analyzed the draft report, Audit of the Administrative Costs
          Claimed by the Oregon Disability Determination Services (A-15-99-52021) along
          with comments submitted by the Oregon DDS. We have additional comments to
          present in order to clarify our responsealong with the Oregon DDS's response

          1) Instruct OR DDS to reclassify to FY 1999 the $55,987 for rental expenses
          or reimburse SSA for the amount.

          Response:

          The Oregon DDS did in fact reclassify rental cost to FY 99 so that each year,
          FY 97, FY 98 and FY 99 all had 12 months rent charged to each year. Costs
          originally charged to FY 99 such as contract clerical costs which are allowed
          to be forward funded were then reclassified to FY 98 to balance FY 99 and
          FY98.

          We would like to again statethat the practice of forward funding rent had
          been an establishedpast practice recommended by SSA, Office of Disability
          The DDSs should not be responsible for reimbursement on forward funded
          rental costs.


          2) Comply with appropriation law for use of FY funds.

          Response

          The SSA Regional Office and the DDS agreethat appropriate laws in the use
          of FY funds have been and will continue to be followed.
3) Instruct OR DDSto provide adequatedocumentation to support questioned
cost of $31,095 or provide reimbursement.

Response:

The DDS submitted documentation to OIG in the amount of$30,187 .68 to
support the questioned costs.


4) Instruct OR DDS to reimburse SSA $124,681 for excessdraw downs.

Response:

The suggestedExcess Draw Downs by OIG are actually unliquidated
obligations, not excessdraws. The unliquidated obligations are, for the most
part related to outstanding systempurchases. These purchases,although
obligated are not complete and PL-101-510 statesthat fiscal year
appropriations do not have to be closed for five years. FY 1996 must be
closed by 9/30/01.


5) Insti"uctthe OR DDS to ensurethat draw downs are not in excessofFY
expenditures.

Response:
The Oregon DDS is aware, and the Regional Office ha~ reminded the DDS
that, draw downs must not be in excess of FY expenditures.



6) Establish a procedure to review DDS quarterly draw downs.


Response

A review    procedure   is in place.



If you have any questionspleasecontact Rob Iseminger,Acting Disability
Program Administrator, at (206) 615-2680 or Shelly Beach, Fiscal Specialist,
at (206) 615-2137.


                                              /8/ Steve Finke18onfor

                                              Carn1enMaria Keller
To:               Shelley Beam
                  Uoyd Horsley~    ty

                  11J08100
Re:               Oregon's Response to Draft.Audit



1 Instruct OR-DDSto reclassifyto FY 19.99,the $55,987 for rental expensesthat
      wereincotrectJychargedto FY 1998/or reimburseSSAfor the amount.
      We will comply with this finding.    We will redassif\J the expenses and r~ubmit
      federal reports.

2.    Comply with appropn'atfon law for use of FY funds.

      We agree.

3. 	 /nEilructOR~DDS to provide to SSA Se8ttle Regional Offlce of DisabUityadequate
     documentation to support the questioned cost of $31,095 or provide
     reimbursement for the questioned amount

     We found dOOJmentation for $30, 187.68 and submitted to Regional Office on
     10/24/00. Documentab"on for the remainder has been requested from State
     .AJ'd1ives.

4. Instruct OR-DDS to reimburse           SSA $1241681 through the PMSIASAP     for the
   excess dralNdowns.

     See attad1ed explanation.




.page1
      Instrud     OR-DDS     to ensure   that drawdowns   are not in excess   of DDS FY
5.
      expenditures.

      We agree.
6. Establish a procedure to review DOS qusrterly drawdowns and ensure that
   drawdown amounts are not in e-xce-ssof DDS disbursements.

      We agree.



Cc:       Don Charlton

          Sandy    Calhoon



          Jane Cowan




.page2
SUBJECT          Social Security Admini5trationDraft Audit of Administrative Costs
                 Conch1sionsandRecommendationsLine 4 Response

Drawdowns Exceeding Disbunements:

       FY 1996          We agreethat we have drawnthe balanceof this authority related

                        To RDP. Social Securityswitchedfrom the PMS systemto

                        ASAP for drawingfunds. JaneCowanrequestedthe balanceof these

                        Fundsusingthe PMS system. BiSIoricaUy, when the Federalgovernment

                        acquiresa new method of requestingfundsthe previoussystemis retired.

                        We thought PMS was going to be retired.


                        We do not know how1O give back these funds. FY 1996 does not exist on
                        ASAP .Please   advise on how this should be handled.


Correctionsfor EXcessDraws:

       FY 1991          AS ofDecember 1999,we had drawn $ lS,178.265 which was

                        More than the SSA- 4513 by $ 67,532. From January10 Septea\ber2000

                        we spent$ 18,106on SpaceRedesign. On Oct. 2412000 on ASAP we

                        gaveback (redu~d 97040RDIOOA)$ 49,426which is the amountof

                        unliquidatedobligationson the 1997SSA- 4513 as of Sept.2000.


       FY 19.98 AIF 	 As ofDec.    1999, we had drawn $ 1.97,480 which is greater than the SSA-
                        4513 by $ 27.544 .From   Janua1}' to September 2000 we spent $ 5,175. 62.
                        On Oct. 24, 2000 we reduced 9804ORDIO 1 $ 22,368.38 which matches
                        1he Ymal SSA-4513   as of Sept. 2000.



In Conclusion:
                       We feel that we havecompliedwith the objecnvesof this recommendation
                       e}CCept  for FY 1996. Prior to ASAP, on the PMS system,letter of Credit)
                        etc. all fiscal year fundsWCfedrawn cumulative(net negativecash-on~
                       handneededto pay expenses).When ASAP was impJemen1ed          and
                       be8iMi"8 in FY 1998we gainedthe abUityto draw by grant year andby
                       autbori?edamountfor eachdedicatedpurpose. Therefore,a yearby year
                       Analysis of drawdownsasshown in your "Drawdowns Exceeded
                       Disb1.U'Semems"    scheduleon pageSis appropricrteonly for FY 1998and
                       Forward.
                                                                         APPENDIX D



                     OIG CONTACTS

                AND ACKNOWLEDGMENTS

Office of the Inspector General

   Frederick C. Nordhoff, Division Director, Financial Management and Performance
   Monitoring Audits, (410) 966-6676

   Carl Markowitz, Auditor Manager, (410) 965-9742
Acknowledgments

In addition to those named above:

   John Beacham, Auditor-in-Charge

   Glenn Lee, Auditor

   Cheryl Robinson, Writer-Editor, Policy, Planning & Technical Services Division

                           DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Acting Commissioner of Social Security
                                          1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders 
                                                       25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives 1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Laor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                               1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
              Overview of the Office of the Inspector General

                                     Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial
audits, required by the Chief Financial Officers Act of 1990, assess whether SSA’s
financial statements fairly present the Agency’s financial position, results of operations,
and cash flow. Performance audits review the economy, efficiency, and effectiveness
of SSA’s programs. OA also conducts short-term management and program
evaluations focused on issues of concern to SSA, Congress, and the general public.
Evaluations often focus on identifying and recommending ways to prevent and minimize
program fraud and inefficiency.

                            Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General
(OIG) by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic
planning function and the development and implementation of performance measures
required by the Government Performance and Results Act. OEO is also responsible for
performing internal reviews to ensure that OIG offices nationwide hold themselves to
the same rigorous standards that we expect from the Agency, as well as conducting
employee investigations within OIG. Finally, OEO administers OIG’s public affairs,
media, and interagency activities and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
